           U.S. Department of
                                                 Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   INFORMATION: Audits Initiated of FAA’s                   Date:    June 24, 2008
           Oversight of Air Carrier Operations
           Federal Aviation Administration
           Project Numbers 08A3010A000, 08A3010A002,
           and 08A3010A001

  From:    Lou E. Dixon                                          Reply to
                                                                 Attn. of:   JA-10
           Assistant Inspector General
            for Aviation and Special Program Audits

    To:    Assistant Administrator for
            Financial Services and Chief Financial Officer

           In recent months, Congress has expressed concerns regarding the Federal Aviation
           Administration’s (FAA) oversight of the U.S. airline industry. These concerns
           were prompted by the highly publicized breakdown in FAA’s oversight of
           Southwest Airlines and resulted in several congressional hearings in April. The
           hearings highlighted weaknesses in FAA’s risk-based Air Transportation
           Oversight System (ATOS), particularly with regard to air carrier compliance with
           Airworthiness Directives (AD).

           As a result of the hearings, the House Committee on Transportation and
           Infrastructure and the Senate Subcommittee on Aviation Operations, Safety, and
           Security requested that our office review the FAA programs and oversight
           weaknesses that contributed to the situation at Southwest Airlines. In addition,
           during the same time period, our office received reports of concerns related to
           FAA’s oversight of maintenance practices at one air carrier. Accordingly, we will
           conduct a series of audits that will examine: (1) FAA’s implementation of ATOS,
           (2) FAA’s review of air carrier compliance with ADs, and (3) FAA’s oversight of
           maintenance practices at one air carrier. Our objectives for each review are
           provided below.
                                                                                   2

 • Congressionally Requested Follow-Up Review of ATOS: The objective of
   this review is to determine whether FAA has: (1) completed timely inspections
   of air carriers’ systems for monitoring critical maintenance programs,
   (2) tested and validated that these carrier systems are operating effectively, and
   (3) effectively implemented ATOS for the remaining air carriers regulated
   under 14 C.F.R. § 121.

 • Congressionally Requested Review of FAA’s Special Inspection of Air
   Carrier AD Compliance: The objective of this review is to evaluate FAA’s
   two-part, special-emphasis inspection of air carriers’ compliance with ADs.
   Specifically, we will evaluate whether FAA: (1) selected a representative
   sample of ADs for review, (2) thoroughly reviewed air carriers’ compliance
   with the selected ADs, and (3) ensured that air carriers implemented corrective
   actions to improve AD compliance where needed.

 • Review of FAA’s Oversight of Maintenance Practices at One Air Carrier:
   The objective of this review is to determine whether: (1) maintenance-related
   incidents, such as in-flight emergencies and diversions or other negative
   maintenance-related trends, have increased at this air carrier and (2) FAA has
   verified that the air carrier’s maintenance program, including its system of
   continuing analysis and surveillance, is operating effectively.

Our reviews will include visits to FAA’s Headquarters, regional, and field offices
and various air carrier offices. As discussed with the Director of Flight Standards
Service on May 12, 2008, we began work on these reviews starting June 2, 2008.
We will contact your audit liaison to schedule an entrance conference to discuss
our objectives in greater detail. If you have any questions or require additional
information, please contact Tina B. Nysted, Program Director, at (404) 562-3770.


                                          #


cc:   FAA Chief of Staff
      Anthony Williams, ABU-100
      Martin Gertel, M-1
